S


December 31, 2008

STEVEN J. FORTE
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

SUBJECT: Audit Report – Timeliness of City Delivery in the U.S. Virgin Islands
         (Report Number DR-AR-09-002)

This report presents the results of our audit of city delivery operations in the U.S. Virgin
Islands (USVI), Caribbean District (Project Number 08XG030DR000). Our overall
objective was to determine whether the U.S. Postal Service delivered mail to the USVI
residents in a timely manner. This audit is one of four we are conducting based on a
congressional request.1 See Appendix A for additional information about this audit.

Conclusion

The Postal Service delivered mail to customers in a timely manner after post offices in
the USVI received the mail. Our observations confirmed timely mail delivery and
sufficient resources to do the job. However, we found that the Postal Service and U.S.
Customs2 could improve communication with customers. Management immediately
took action to resolve the communication issue.

Timeliness of Mail Delivery

Mail was being delivered in a timely manner after post offices in the USVI received it.
Specifically, we found:

    •    Carriers efficiently cased3 mail in the office, allowing more time for deliveries.
    •    Carriers generally completed deliveries before 5:00 p.m., which is above the
         national standard.
    •    From fiscal year (FY) 2005 to 2007, the units had approximately 51,000 delayed
         mail pieces, which is minimal in comparison to the total mail volume of
         approximately 59 million mail pieces annually. As of the second quarter of FY
         2008, the delayed mail volume was reported at zero.
    •    Units had sufficient resources to timely deliver the mail to customers.

    See Appendix B for our detailed analysis.


1
  The other three reports will address issues we identified in mail processing and transportation operations, and then
a capping report addressing overall operations.
2
  Congresswoman Christiansen submitted two complaints related to Customs seizures.
3
  City delivery carriers “case” mail by manually sorting it into distribution slots in delivery sequence or the carrier’s line
of travel. Then they “pull down” mail by extracting it from the distribution slots and placing it in trays for delivery to
street addresses.
Timeliness of Mail Delivery Operations                                       DR-AR-09-002
 U.S. Virgin Islands


Customs-Related Issues

The Postal Service and Customs could improve communication with customers.
Customers had made complaints about USVI mail being misdirected, incorrect
addressing, damaged, and intercepted. During our audit, New York Metro Area
management took corrective action that should resolve the issues identified in the
report. Therefore, we are making no recommendation regarding this issue. See
Appendix B for our detailed analysis.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordon M. Small
    Jesus Galvez
    Monica A. Hand
    Priscilla M. Maney
    David O. Stevens
    Louis A. Jackson
    Ellen D. Petersen
    Angela Lake
    Katherine S. Banks




                                           2
Timeliness of Mail Delivery Operations                                                                 DR-AR-09-002
 U.S. Virgin Islands


                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

On May 1, 2008, Congresswoman Donna M. Christensen, Delegate of the USVI, and
Congressman Danny K. Davis, Chairman, Federal Workforce, Postal Service, and the
District of Columbia requested the U.S. Postal Service Office of Inspector General (OIG)
to conduct an audit concerning levels of mail service in the Virgin Islands. Officials were
concerned with delayed mail, interception of USVI-bound mail by U.S. law enforcement
agencies, and inadequate staff levels in USVI.

USVI Postal Service operations are located in the New York Metro Area, Caribbean
District. The USVI includes St. Thomas, St. Croix, and St. John. 4 USVI mail is
processed at the San Juan, Puerto Rico Processing and Distribution Center, the San
Juan Air Mail Facility, and the San Juan Annex. The St. Thomas and St. Croix locations
receive approximately 59 million mailpieces annually (189,000 mailpieces daily),
resulting in approximately 4,800 mailpieces daily for each of 39 city carriers and three
rural carriers. The St. Thomas and St. Croix locations deliver mail on 19 city and three
rural routes, using 40 Postal Service vehicles for the city routes.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether mail was delivered in a timely manner to the
USVI residents. This audit is one of four we are conducting based on a congressional
request. To accomplish our objective, we:

•   Judgmentally selected five5 of 12 delivery unit locations in St. Thomas, St. John, and
    St. Croix for site visits based on customer complaints, delivery performance
    indicators, and similarities of facility type and the number of city routes.
•   Reviewed applicable documentation, policies and procedures such as Handbook M-
    39, Management of Delivery Services; Handbook M-41, City Delivery Carriers Duties
    Responsibilities; Delivery and Retail Standard Operating Procedures (SOP);
    Handbook T-5, International Mail Operations; and Delivery Operations Information
    System (DOIS) Pivot Plan Job Aid and Using Managed Service Point (MSP) guides.
•   Obtained and reviewed performance indicator data from the Web Enterprise
    Information System (WebEIS) for the five delivery unit locations for FY 2005 through
    FY 2008, quarter 2, to include percent to standard, carriers returning by 5:00 p.m.,
    delayed mail volume, and delivery point sequencing.
•   Observed delivery floor operations to include carriers casing mail, mail arrival,
    packages for customer pickup, and post office box distributions.

We conducted this review from May through December 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
4
  The St. John Post Office had two contract carriers and no city or rural delivery carriers. We observed operations at
the St. John Post Office, which was similar to the Veterans Drive Station we audited in St. Thomas.
5
  The five delivery unit locations included the three Main Post Offices – St. Thomas, Christiansted, and Frederiksted –
and one post office each in St. John and St. Croix.



                                                          3
   Timeliness of Mail Delivery Operations                                               DR-AR-09-002
    U.S. Virgin Islands


   controls as we considered necessary under the circumstances. Those standards
   require that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objective. We believe the evidence obtained provides a reasonable basis for our
   findings and conclusions based on our audit objective. We discussed our observations
   and conclusions with management officials and included their comments where
   appropriate. We relied on data obtained from Postal Service database systems. We
   did not directly audit the systems, but performed a limited data integrity review to
   support our data reliance.

   PRIOR AUDIT COVERAGE

   The OIG has issued two reports in the last several years related to our objective.

                     Report
Report Title                            Final Report Date              Report Results
                    Number
Timely City       DR-AR-08-001        October 11, 2007      The report summarized the Chicago
Delivery –                                                  District’s difficulty with timely mail
Chicago                                                     delivery. Specifically, delivery
                                                            performance indicators showed that
                                                            office performance was well below
                                                            standard; street performance was at
                                                            an all-time low; delayed mail volume
                                                            had increased dramatically; and the
                                                            percentage of mail arriving in delivery
                                                            sequence at the units was much
                                                            lower than the national average.
                                                            Management agreed with our
                                                            recommendations.
Delivery and      DR-MA-07-003        February 22, 2007     The 2007 report summarized a
Retail                                                      series of nine area reports
Standard                                                    identifying opportunities to
Operating                                                   improve implementation of the
Procedures                                                  Postal Service’s Delivery and
National
                                                            Retail SOP. We did not make
Capping
                                                            recommendations in this report
                                                            that required management’s
                                                            comments.




                                                    4
Timeliness of Mail Delivery Operations                                                               DR-AR-09-002
 U.S. Virgin Islands


                                APPENDIX B: DETAILED ANALYSIS

Timely Mail Delivery Operations

Post Office Efficiency

The St. Thomas and St. Croix locations’ percent-to-standard performance6 indicator
showed that carriers were efficiently casing the mail, allowing more time for deliveries
(see Chart 1). For example, from Quarter 1, FY 2005, to Quarter 2, FY 2008,
Frederiksted and Christiansted Main Post Offices’ (MPO) percent to standard generally
fell below the area and district levels. The St. Thomas MPO was above the area and
district average from Quarter 1, FY 2005, to Quarter 1, FY 2007, but was below these
averages from Quarter 2, FY 2007, to Quarter 2, FY 2008. As of Quarter 2, FY 2008, all
three locations were below the district, area, and national percent to standard. Our
observations confirmed that carriers were casing and delivering all mail received at their
locations.

                                       Chart 1. Percent to Standard
                                       FY 2005 – FY 2008, Quarter 2




Carriers Returning by 1700 Performance Indicator

Source: WebEIS




6
 Percent to standard is determined by dividing actual office hours by standard office hours. Standard hours are
determined by applying the current office time standards plus fixed office time to the volume for the period in
question. A post office that uses fewer hours than standard (percent to standard below 100 percent) is considered
highly efficient.



                                                         5
Timeliness of Mail Delivery Operations                                         DR-AR-09-002
 U.S. Virgin Islands


Carriers Returning by 5:00 p.m.

Carriers generally returned to the office on time from street delivery, either before or at
5:00 p.m. daily. This indicated that most mail was delivered on time and within
requirements. The St. Thomas and St. Croix locations’ percentages of carriers
returning before 5:00 p.m. (called the 1700 performance indicator) were generally above
the district’s percentage in Quarter 1, FY 2005, through Quarter 2, FY 2008. (See Chart
2.) From Quarter 3, FY 2007, through Quarter 2, FY 2008, the Christiansted and
Frederiksted MPOs on St. Croix were above the national, area, and district
percentages. Christiansted and Frederiksted carriers’ return percentage for Quarter 2,
FY 2008, were both 99 percent. The St. Thomas Post Office was 96 percent, which is
above the national percentage, but slightly below the area and district.

                       Chart 2. Carriers Returning by 5:00 p.m.
                            FY 2005 – FY 2008, Quarter 2




Source: WebEIS




                                             6
Timeliness of Mail Delivery Operations                                                DR-AR-09-002
 U.S. Virgin Islands


Delayed Mail Volume in Customer Deliveries

The volume of mailpieces delayed in delivery was minimal in comparison to the total
mail volume of approximately 59 million mail pieces annually. For a 3½-year period, we
found:

    •   The Frederiksted MPO delayed mail volume was reported as zero for 2½ FYs
        and totaled 1,086 mailpieces in FY 2007.

    •   The Christiansted MPO delayed mail volume was reported as zero for 1½ FYs
        and totaled 48,302 mailpieces combined for FY 2006 and 2007.

    •   The St. Thomas MPO reported delayed mail of 1,714 mail pieces in FY 2005 and
        no delayed mail in the other 2½ FYs.

These figures show that mail arriving at delivery units for these locations on a given day
was generally being delivered to the customers and not held in the office. During June
and July 2008, we performed site visits to these locations, and our observations
confirmed delivery of all mail received at these locations to customers. (See Table 1.)

                              Table 1. Customer Service Delivery:
                                Delayed Mail Volume in Pieces
                                 FY 2005 – FY 2008, Quarter 2


                                          FY         FY          FY         FY 2008,
                Locations                2005       2006        2007     Quarters 1 and 2

         Frederiksted MPO                       0          0     1,086                  0

         Christiansted MPO                      0       9,853   38,449                  0

         St. Thomas MPO                  1,714             0        0                   0
        Source: WebEIS




                                                    7
Timeliness of Mail Delivery Operations                                                            DR-AR-09-002
 U.S. Virgin Islands


Resources

Staffing levels in the USVI were adequate to deliver the daily mail volume. The MPOs
had nine supervisors, 39 city carriers, and three rural carriers, delivering the mail on 19
city and three rural routes and using 40 Postal Service delivery vehicles for the city
routes. Our benchmarking results indicated the city carrier staffing ratio is 1.77 carriers
per route. This ratio is higher than the national standard range, which is set at 1.33 to
1.37 per route to ensure adequate coverage for delivery. Further, the ratio of vehicles
to total routes is 1.82, which exceeds the Postal Service standard for vehicles, which is
one vehicle per route with a 3 percent maintenance reserve, to deliver the mail on city
routes.7

Customs-Related Issues

We found the Postal Service and Customs could improve communication with
customers. Customers had made complaints about USVI mail being misdirected,
damaged, intercepted, and incorrect addressing. Congresswoman Christiansen
submitted two complaints related to Customs seizures.

We confirmed that in August 2007, Frederiksted MPO officials discussed these issues
with the St. Thomas Community in a town hall meeting, attended by Congresswoman
Christensen and the Mayor of Frederiksted. This meeting was part of the Address
Format Campaign. As part of this campaign, the officials also made radio broadcasts,
held seminars, and notified news media about address formats. Further, officials
developed the Consumer Advocacy Council, which holds periodic meetings so that
customers can discuss their concerns, ideas, and suggestions with a Postal Service
representative. The goal of these meetings and the overall campaign was to improve
communication and customer satisfaction.




7
 The New York Metro Area was conducting route optimization reviews to determine areas for resource reductions
based on declining mail volume.



                                                       8
Timeliness of Mail Delivery Operations                                       DR-AR-09-002
 U.S. Virgin Islands


The photograph below show examples of packages detained by Customs in July 2008.




                                San Juan Air Mail Facility
                           Packages Detained by U.S. Customs July 2008


Further, the Postal Service issued Standard Operating Procedures for Retail Units on
August 14, 2008, outlining detailed instructions for retail associates to process
packages requiring customs forms for their shipment. Retail associates are required to
inform customers that incomplete names (for example, using only initials instead of
writing out the name) or incomplete address entries on the customs forms will result in
delayed handling by Customs or the delivery office. Also, if the sender declares that the
contents have no value, retail associates must inform customers that items without
value are not exempt from Customs inspection.

Management’s Corrective Action

Regarding customer communication, the Postal Service and Customs initiated
corrective action. The Postal Service conducted discussions with the USVI
Postmasters on informing customers about Customs’ requirements and provided them
with additional information from the U.S. Department of State website. Officials stated
that Customs is developing posters to communicate their regulations to Postal Service
customers. The Postal Service Customer Relations Office will review the posters before
placement in post offices. These actions to improve communication began in
November 2008.




                                                 9
